No.

IN THE SUPREME COURT OF THE
UNITED STATES
Libertarian Party of Erie County,
Michael Kuzma, Richard Cooper, Ginny
Rober, Philip M. Mayor, Michael
Rebmann, Edward L. Garrett, David
Mongielo, John Murtari, William
Cuthbert,
Petitioners,
v.
Andrew M. Cuomo, individually and as
Governor of the State of New York,
Letitia James, individually and as
Attorney General of the State of New
York, Joseph A. D'Amico, individually
and as Superintendent of the New York
State Police, et al.
Respondents.

On Petition for Writ of Certiorari
To the United States Court of Appeals
for the Second Circuit

CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I
certify that the document contains 8635 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d), and that
the petition is under 40 pages.
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on February 9, 2021, by
Counsel of Record
/s/ Michael Kuzma
MICHAEL KUZMA
1893 Clinton St.
Buffalo, New York 14206
(716) 822-7645
michaelkuzmaesq@gmail.com
Attorney for Petitioners

